No.

IN THE SUPREME COURT OF THE UNITED STATES
October Term 2018

In re Thomas F. Williams
Petitioner.
CERTIFICATE OF COMPLAINCE
TO WORD COUNT
I, Thomas F. Williams, do swear or declare that the word count for this
document is 8502 as counted by the word processor that I am using to complete the
Habeas Corpus in booklet format. The program that I am using is: "OpenOffice 4,
Text Document”.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this /&

day of

/s<
Thomas F. Williams #095608
Petitioner pro se

, 2019.

